                    Department of Veterans Affairs 

                         Office of Inspector General 





       Administrative Investigation 

 Failure to Properly Supervise, Misuse of 

    Official Time and Resources, and 

      Prohibited Personnel Practice 

        VA Center for Innovation 

             VA Central Office 





      Redacted



Report No. 13-01488-86                                       February 24, 2014

                           VA Office of Inspector General

                              Washington, DC 20420

                          DEPARTMENT OF VETERANS AFFAIRS
                                 Office of Inspector General
                                  Washington, DC 20420




TO:	            VA Chief of Staff

SUBJECT:	       Administrative Investigation, Failure to Properly Supervise, Misuse of
                Official Time and Resources, and Prohibited Personnel Practice,
                VA Center for Innovation (VACI), VA Central Office (VACO) (2013-
                01488-IQ-0010)

Summary
We substantiated that Mr. Jonah Czerwinski, former (resigned) Director of VACI and a
Senior Advisor to VA’s Secretary, failed to properly discharge the duties of his position
when he did not properly detail and supervise                           formerly a GS-12 (b)(7)(C)
Rating Veterans Service Representative (RVSR), Veterans Benefits Administration
(VBA), Nashville, TN, which led to                  misusing his official time, improperly
teleworking, working ad hoc, traveling without authorization, and misusing his position
and VA resources. We also found that                 downloaded and installed unapproved
software to his VA-issued laptop for the purpose of sexting—defined as the sending of
sexually explicit photos, images, text messages, or emails using a mobile device.

Further, we found that              at his own expense and without authorization, moved
from Nashville to the Washington, DC, area in February 2013 in anticipation of being
transferred to VACO, whereas personnel records reflected that his official duty station
remained in Nashville. We recognize that there was no prohibition against
choosing to move anywhere at his own expense, but it evidenced his and (b)(7)(C)
Mr. Czerwinski’s intent, with forethought, to eventually relocate             to VACO.
Additionally, we found that Mr. Czerwinski engaged in a prohibited personnel practice
when he pressured VBA officials to create a non-competitive GS-13/14 position in
VBA’s Office of Strategic Planning (OSP) to give preference to, promote, and relocate
            for           ’s benefit and not that of VA. Moreover, we found that he did
not discharge the duties of his position when he intentionally did not inform VBA
officials of the OIG investigation of               for misconduct so that VBA officials
involved in the selection process could make fully informed decisions. We also found
that VBA officials engaged in a prohibited personnel practice when they failed to make
proper considerations in their personnel decisions concerning                 when they
created an OSP position to promote and relocate him to Washington, DC, without
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

question and solely due to Mr. Czerwinski’s request. We did not make any
recommendations for administrative actions against Mr. Czerwinski, as he resigned his
VA position effective September 30, 2013. We also did not make any recommendations
for administrative action against Mr. James Alan Bozeman, VBA Program Director,
Veterans Benefits Management System, as he resigned his VA position January 13, 2014.
            was promoted into a GS-13 position with a duty station in Washington, DC,
on July14, 2013, about 5 months after his move to the Washington, DC, area.           (b)(7)(C)

We further found that Nashville supervisors failed to properly document
VACI detail or properly supervise              which resulted in his unauthorized travel,
a misuse of                VA contractor-issued travel card, and misuse of about $31,000
in travel funds. In addition, we determined that               absence from his Nashville
RVSR duties while improperly detailed for a prolonged period of time resulted in an
undetermined number of veterans’ claims not being reviewed, as required by his position
of record. We recognize a need to, at times, detail VA employees; however, detailing
employees must be properly documented and comply with VA policy.

Introduction
The VA Office of Inspector General Administrative Investigations Division investigated
allegations that              misused his official time and VA resources to frequently
travel to Washington, DC, for over a year, and rather than report to his temporary VACO
duty station, he teleworked from a hotel room. In addition, Mr. Czerwinski was allegedly
not always aware of                location, that he teleworked from a hotel room, and he
failed to take the appropriate action to correct this misconduct. To assess these
allegations, we interviewed Mr. Czerwinski,                  Mr. Bozeman, and other VA
employees. We reviewed time and attendance, email, and travel records, travel card
activity reports, computer logs, and other relevant documents. We also reviewed Federal
laws, regulations, and VA policy.

Background

A February 20, 2013, news release from VA’s Office of Public and Intergovernmental
Affairs reflected that Secretary Shinseki created VACI based on the success of its
predecessor, VA Innovation Initiative (VAi2), launched in 2010. The VACI mission
was to transform VA into a 21st century people-centric, results-driven, and forward-
looking organization. A VA intranet website reflected that VACI looked to private sector
startup companies, industry leaders, academic and research facilities, and VA employees
for input. Mr. Czerwinski told us that he headed VACI, and that he staffed it with people
from across VA.

Personnel records reflected that VA’s Secretary appointed Mr. Czerwinski as a Special
Assistant to the Office of the Deputy Secretary, effective February 23, 2009, using a non-
competitive Schedule C Appointing Authority. The Office of Personnel Management


VA Office of Inspector General                                                                          2
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

(OPM) website (December 31, 2013) reflected that OPM may grant hiring authority
under Schedule C on a case-by-case basis in situations for which political appointments
are appropriate. Generally, the authority to fill a Schedule C position is revoked when
the incumbent leaves and agencies need specific approval from OPM to establish or
reestablish the position. In authorizing Mr. Czerwinski’s pay rate above the minimum,
VA’s former Chief of Staff stated that Mr. Czerwinski brought extensive experience in
leading people, managing resources, advising top management officials, and strategic
communications and that an advanced rate was necessary to provide a pay rate
commensurate with the knowledge, skills, and experience Mr. Czerwinski possessed to
perform the duties of his position.
                                                                                                             (b)(7)(C)
            told us that he began his VA career at the VA Regional Office (VARO),
Nashville, TN, in May 2007 and that he was detailed to VAi2 (referred to as VACI
hereafter in this report) in May 2011. However, personnel records reflected that his
RVSR title and position description, as well as the location of his duty station, did not
change. The VACI website identified                 as a project manager on a special detail
from VBA, and his role was to move industry pilot projects through the VACI process.
This website also reflected that prior to his detail to VACI,             was a Nashville
RVSR determining disability compensation levels of claims submitted by Veterans
exposed to Agent Orange.

                RVSR position description stated, “The Rating VSR analyzes claims,
applies VA’s Schedule for Rating Disabilities (Rating Schedule), and prepares rating
decisions informing the VSR [Veterans Service Representative] and/or claimant of the
decision, the bases, and the reason for it.”               performance standards reflected
that an RVSR was rated on multiple elements, one of which was productivity. As an
RVSR,                was expected to process a minimum cumulative average number of
3.5 weighted cases per day, but due to                improper and undocumented detail to
VACI, he did not review veterans’ claims as depicted in his position description,
performance plan, or annual appraisal. In the alternative, he did not devote maximum
effort during the detail to developing new solutions to the backlog problem.

Results                                                                                                (b)(7)(C)
Issue 1: Whether                    Was Improperly Detailed to VACI

VA policy states that a formal detail (within VA for 30 days or longer) requires the
approval at the service/division chief level or higher. It also states that formal details will
be initiated by a Standard Form (SF)-52, Request for Personnel Action, forwarded to the
Human Resources (HR) Management Office for action, and another SF-52 will be
necessary to extend or to terminate the detail. Employees may be detailed, in 120-day
increments, to the same or lower grade positions for up to 1 year. It states that details of
120 days to higher-graded positions may be extended for an additional 120 days
(maximum period of 240 days). If a detail of more than 120 days is made to a higher-


VA Office of Inspector General                                                                          3
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

graded position, or to a position with known promotion potential, it must be made under
competitive promotion procedures. VA Handbook 5005, Part III, Chapter 2, Para. 13
(April 15, 2002). The Director of VBA’s HR Office issued a memorandum, dated
November 9, 2009, to all Regional Offices, Program, and Staff Office Directors,
providing guidance on detailing VBA employees. It stated that formal details were to be
initiated by an SF-52, the requesting office was to complete the SF-52 and forward it to
their servicing HR center for action, and another SF-52 was needed to extend or
terminate the detail.
                                                                                                      (b)(7)(C)
               Reassignment to Fast Track

Mr. Bozeman told us that Fast Track was an initiative designed in October 2009 by VA’s
Secretary to make a web-based electronic processing system to allow veterans to file
claims and to process those claims for benefits. Mr. Bozeman, who, at that time, was
third in               supervisory chain, told us that he “requested             to be made
available for Fast Track from the Nashville RO.” Email records reflected that
started working on the Fast Track Project on September 12, 2010, and Mr. Bozeman said
that               Fast Track responsibilities were collateral duties of his RVSR position.

Mr. Bozeman told us that                 was initially a tester of the Fast Track Project and
that he then “served as a Subject Matter Expert…and eventually was the Fast Track
Project Manager after [his] move to DC in May 2011.” Mr. Bozeman said that as a
tester,             typically traveled 1 or 2 weeks at a time and that he would then return
to his Nashville duty station to perform his RVSR duties. He also said that that once
            became the Project Manager he traveled extensively to Washington, DC. He
further said that around April 2011,               spent 100 percent of his time on the Fast
Track Project and that was when                 began operating as an “independent agent”
with minimal supervision.

               Improper Detail to VACI

Email records reflected that in May 2011, Mr. Bozeman facilitated a meeting between
             and Mr. Czerwinski, and he agreed to let Mr. Czerwinski assign VACI tasks
to               However, Mr. Bozeman told us that he did not have the authority to
                                                                                         (b)(7)(C)
assign              to another VA organization to perform duties other than those of a
RVSR, since he was not                ’s direct supervisor, did not approve his time and
attendance, or give             his performance plan or annual appraisal. Nonetheless,
Mr. Czerwinski told us that he assigned             to work in VACI as of May 22, 2011,
but that there was no agreement or SF-52 prepared to officially detail him.

Mr. Czerwinski told us that originally            ’s VACI involvement was “more like a
convenience,” because VACI needed someone with contracting officer’s representative
experience to help them with a short-term project. He said that                ’s work on
Fast Track did not consume all of his official time, so it was “an opportunity” for VACI.


VA Office of Inspector General                                                                          4
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

He said that             subsequently “kind of stayed around.” Further, he said that they
found             to be a “really great member of the team” and that he “loved to work.”
Mr. Czerwinski said that 10 percent of                     time became 20 percent and
continued to increase until            asked if he could work for VACI full-time.         (b)(7)(C)
                                            ,                                      , told us
that she became frustrated by             ’s situation because she still had to approve his
timecards, and he filled a full-time equivalent (FTE) position that they desperately
needed to fill with another rating specialist to help relieve a backlog in rating veterans
and getting benefits to them. She said that his absence from the VARO, unfortunately,
went “on and on,” which was not helpful to the veterans.

                                                                                  , told us
that                reassignment was a “very unique situation,” because he was detailed
from VBA to another VA entity for almost 2 years without the proper paperwork. He
said that the Nashville VARO staff tried to get             off their books for quite some
time, since              was working for VACI and no longer worked for the VARO. He
said that if              was properly reassigned, they could have hired someone else to
actually work processing veterans’ claims. He also said that Mr. Travis Kraft, Nashville
VARO Director, told Nashville managers not to question                   on his day-to-day
activities or telework, since he was detailed to Washington, DC, on a special project, and
any telework agreement would be the responsibility of              ’s DC supervisor.

                 said that VBA held monthly teleconference meetings for nationwide
VARO representatives to have roundtable discussions with the Under Secretary for
Benefits, Allison Hickey, and provide feedback about their respective challenges. He
said that during the April 23, 2013, teleconference in which Under Secretary Hickey was
present, Nashville VARO staff expressed their concerns that numerous raters were
detailed to special projects rather than reviewing claims. As an example, they said that (b)(7)(C)
             filled one of the Nashville VARO positions, yet he did not perform the
functions of that position for 2 years.

Mr. Kraft told us that either Mr. Bozeman or Mr. Czerwinski told him that               ’s
detail was full-time. He said that Mr. Bozeman would sometimes call him on a Thursday
or Friday and say, "Hey, I need        in DC next week," and Mr. Kraft would say, "Yes,
sir." Mr. Kraft said that the Nashville VARO took national initiatives very seriously and
supported any national initiative that came from VACO. He said that there were things
that they “obviously could have done much better” but that “the folks here, to include
myself, were trying to support a national initiative and maybe had too much trust that we
were doing what we thought we were supposed to be doing.”




VA Office of Inspector General                                                                          5
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Conclusion
A formal detail must be initiated, extended, or terminated by the requesting office
submitting an SF-52 to HR for action, and an employee may be detailed in 120-day
increments to the same grade for no more than 1 year. Mr. Czerwinski not only failed to
submit the appropriate SF-52s to initiate and extend a formal detail, but he kept
            in that position for more than 2 years, contrary to VA policy. Further, had
Mr. Czerwinski properly reassigned               to VACI, the VARO could have filled the
position with another employee to process veterans’ claims to help alleviate the backlog.
Although the Nashville managers had some responsibility in this matter, they wanted to
be supportive of national initiatives, and they expressed their concerns of not only
           ’s long detail away from his duty station but of other raters being detailed to
“special projects” rather than reviewing veterans’ claims as required by their positions.  (b)(7)(C)
Recommendation 1. We recommend that the VA Chief of Staff ensure that VBA
conducts a review of all RVSRs to ensure that any not performing the functions of their
position are either properly detailed or returned to their RVSR duties.

Issue 2: Whether VA Managers Failed to Properly Supervise

Unauthorized Travel

VA policy states that employees traveling on official business will have approval from
direct-line supervisors and, except in emergencies, that approving officials will authorize
travel for employees under their jurisdiction in advance of the travel and determine if the
travel is essential for the purpose of carrying out the mission of VA. It further states that
approving officials will ensure all travel is performed in the most economical and
effective manner; examine expense vouchers to ensure the justification, supporting
documentation, and receipts are attached; travel expenses for which reimbursement is
claimed was performed as authorized; and split-pay was used to pay for all authorized
expenses made to the travel card. It states that expense reports will be examined and
approved by the approving official having knowledge of the facts involved in the travel
and that approval signifies that the travel and expenses are in order and administratively
approved for payment. Procedures will be established by each authorizing official to
ensure that reimbursement of expenses is properly administered and controlled to prevent
abuse and that an appropriate review of the justification for travel on an actual
subsistence expense basis will be made. Expenses claimed by an employee will be
reviewed by the authorizing official to determine whether the expenses are reasonable,
allowable, and necessarily incurred in connection with the travel assignment. VA Travel
Administration, Volume XIV, Chapter 1 (February 2011).

           told us that, at his own discretion, he traveled to Washington, DC, about every
other week, none with supervisory approval. He said that the way the Nashville VARO
was organized, a fiscal officer, not in his supervisory chain, approved his travel expense


VA Office of Inspector General                                                                          6
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

reports. He further said that he never communicated with his Nashville supervisor about
his travel to Washington, DC, and that no one within his supervisory chain authorized or
knew when he was in travel status. He said that he occasionally told Mr. Czerwinski
when he traveled to Washington, DC, but that at any given time, Mr. Czerwinski would
not know whether he was in Washington, DC, or Nashville.

Mr. Czerwinski told us that he believed that             had two supervisors, himself and
Mr. Bozeman, and that it was                 responsibility to tell Mr. Bozeman when he
needed to travel to Washington, DC, for VACI projects. He said that he did not
independently call               Nashville supervisor to see if               ’s travel was
                                                                                             (b)(7)(C)
approved; did not always know                 ’s whereabouts; and there were occasions
when he had to ask             whether he was in Washington, DC, or Nashville. He also
said that there was poor management and a lack of oversight on his part and that he
wished someone had more constant contact with regard to                 ’s “travel details.”
He told us that he thought he had a better “counterpart in Nashville.” Mr. Bozeman told
us that he did not tell               when to travel; did not authorize any travel for
            and             never sought his authorization to travel.

Personnel records reflected that           was a GS-11 when Mr. Bozeman tasked him
with running the Fast Track Project in May 2011. Mr. Bozeman told us that
as a GS-11, should not have been given full autonomy to act independently and without
adequate supervision, but he (Mr. Bozeman) did not have enough time to run both the
Fast Project and the Veterans Benefits Management System programs.

               Improper Performance Plan and Performance Appraisal

VA policy states that the intent of the performance appraisal is to appraise an employee’s
performance covering an entire rating period. To do so, when an employee changes
positions within VA, a performance (summary) rating will be prepared by the Rater,
shared with the employee, and forwarded to the servicing HR office or to the gaining
organization. If the detail or temporary promotion lasts for [90 days or more], a
performance rating will be prepared at the conclusion of the detail or temporary
promotion that appraises the employee’s performance while in the temporary position.
This rating should be shared with the employee and then forwarded to the servicing HR
management office or employing organization to consideration at the end of the appraisal
period. VA Handbook 5013/1, Part I (November 18, 2003). VA policy states that an
employee’s performance rating is required when the employee was detailed to another
position in VA or served in another employee position on an acting basis for 120 days or
longer. In addition, VA policy states that if a detail or acting assignment is expected to
last 120 days or longer, a written performance plan will be prepared. This written plan,
developed in consultation with the employee, will be provided to the employee no later
than 30 days after the beginning of the detail or acting assignment. Id., at Appendix F.




VA Office of Inspector General                                                                          7
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Mr. Bozeman told us that                  involvement with Fast Track was not a detailed
assignment but a collateral duty of his responsibility as a RVSR. He said that he did not
prepare a performance plan for                 even when              was expending 100 (b)(7)(C)
percent of his time on Fast Track in April of 2011.                             immediate
supervisor, told us that she prepared, and
          , approved               performance plan and appraisal for FY 2011 and FY
2012, which covered the period he was detailed to VACI. She said that no one at VACI
gave her any input for his performance, and                  as her supervisor, told her to
write "Detailed special project. No production quality." on                  performance
appraisal and rate him as                 . She complied, and                approved the
rating.              also said that other than noting that             was on a “special
detail” nothing changed with regards to his performance plan and position description to
reflect his VACI duties.

Personnel records reflected that            signed             performance appraisal for
FY 2011, rating him as                    , and
                         in Nashville, approved it. Records also reflected that
signed                performance plan and appraisal for FY 2012, rating him as
          , and it was again approved by

VA policy states that the Rater, defined as the official, usually the immediate supervisor,
who is responsible for the development of performance plans and who appraises
the employee’s performance and recommends an initial summary rating, assess the
employee’s accomplishment of each established performance requirement, consider the
impact of the individual requirements on overall performance of the element, and assign
one achievement level for each element. An achievement level must be assigned for each
critical and other performance element of the plan unless the employee had insufficient
opportunity to demonstrate performance in the element. When an achievement level of
fully successful or higher is assigned, the Rater should ensure that documentation of
performance accomplishments contained in the individual’s self-assessment adequately
justify the rating or the Rater must provide supporting justification. VA Handbook
5013/1, Part I, Appendix F, Paragraph 7 (November 18, 2003).                                (b)(7)(C)
                told us that               ’s VACI supervisors provided no input for
              performance appraisal. He said that               “was in a unique situation,
because he’s technically on our rolls but he’s really not doing any work for us.” He also
said that since            was still a Nashville employee, they had “to certify at the end
of the year” to their HR Center in Jackson, MS, that the end-of-year appraisals were
completed on all employees, including                   He said that since they were not
aware of anything negative concerning                they “marked him
       on that rationale.” VA policy defines a                      rating as




VA Office of Inspector General                                                                          8
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO



Furthermore, it states that when an employee is detailed for a significant portion of the (b)(7)(C)
appraisal period, the Rater will make a reasonable effort to obtain relevant appraisal
information from the agency or organization to which the employee is detailed or
temporarily assigned for consideration in assignment of the initial summary rating. Id., at
Paragraph 8c(3).

               and             told us that            came to the Nashville office to
complete training, submit travel receipts, and/or when he was called in to attend a
meeting. They said that              did not complete any work for Nashville since he
was detailed to VACI. Further,                 told us that May 20, 2011, was the last
time            reviewed veterans’ claims and/or performed any work for Nashville.

              position description stated that as a RVSR his duties and responsibilities
required that he analyze claims, apply VA’s Schedule for Rating Disabilities (Rating
Schedule), and prepare rating decisions informing the VSR and/or claimant of the
decision, the basis, and the reason for it. His performance standards reflected that an
RVSR was rated on multiple elements, one of them was productivity, and to be
          ,             was expected to process a minimum cumulative average number
of 3.5 weighted cases per day.                  absence from his Nashville RVSR duties
while improperly detailed for a prolonged period of time resulted in an undetermined
number of veterans’ claims not processed based on their established criteria for rating a
RVSR                   . We recognize a need to, at times, detail VA employees; however
detailing must be properly documented and comply with VA policy.
                                                                                                         (b)(7)(C)
Conclusion
Mr. Czerwinski and Mr. Bozeman, the Washington, DC, employees responsible for the
detail, and                 and              the Nashville, TN, employees responsible as
supervisors, failed to ensure that             was properly supervised and they failed to
ensure that               ’s performance standards and annual performance appraisals
reflected the duties he actually performed. Furthermore,                    signed, as the
recommending official, and                 signed, as the approving official,           ’s
annual performance appraisals, giving him a                       rating for duties he no
longer performed and not the VACI duties he performed 100 percent of the time.
Further,             ’s absence from his RVSR duties while unsupervised and improperly
detailed to VACI resulted in an undetermined number of veterans’ claims not processed.
Furthermore, a lack of supervisory controls and guidance allowed                        to
indiscriminately travel at his own discretion without any supervisory approval of his
travel or his reimbursed travel expenses and led to additional misconduct on            ’s
part, which we discuss below.




VA Office of Inspector General                                                                          9
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Recommendation 2. We recommend that the VA Chief of Staff confer with the Office
of Human Resources and Administration (OHRA) and the Office of General Counsel
(OGC) to determine the appropriate administrative action, if any, to take against
                                                                                                             (b)(7)(C)

Recommendation 3. We recommend that the VA Chief of Staff confer with the OHRA
and OGC to determine the appropriate administrative action, if any, to take against


Recommendation 4. We recommend that the VA Chief of Staff confer with the OHRA
and OGC to determine the appropriate administrative action, if any, to take against


Recommendation 5.         We recommend that the VA Chief of Staff ensure that
                              and                  receive appropriate refresher training in
supervisory responsibilities for official travel, performance standards, and appraisals.

Issue 3: Whether                    Misused Official Time and Resources

Federal regulations state that an employee shall not engage in conduct prejudicial to
the Government. 5 CFR § 735.203. Standards of Ethical Conduct for Employees of the
Executive Branch state that an employee shall not use public office for private gain, use
Government property for other than authorized purposes, and must use official time in an
honest effort to perform official duties. 5 CFR §§ 2635.101(b)(7), 704(a), and 705(a).

Misuse of Travel Funds

Federal regulations require agencies to pay only travel expenses that are essential to
official business, employees to exercise prudence when incurring expenses on official
travel, and prohibit the payment of excess costs resulting from circuitous routes or
services unnecessary in the performance of official business. 41 CFR § 301-2.2, -2.3,
and -2.4. Regulations also state that an agency must determine that use of a rental vehicle
is advantageous to the Government and must specifically authorize such use; an agency
may pay the fees pertaining to the first checked bag and for subsequent bags when the
agency determines those expenses are necessary and in the Government’s interest, and
employees must provide receipts for lodging and any other expenses costing over $75.
Id., at 301-10.450, -12.2, and -52.4.

VA policy states that employees traveling on official business will have approval from
their direct-line supervisors, no VA employee may authorize or approve his own travel,
nor may an alternate preparer authorize or approve the travel expenses submitted on
behalf of a traveler. It also states that each employee who authorizes, directs, or performs
travel will exercise due care and practice economy in all matters involving travel costs.
Moreover, it states that travel will be conducted at Government expense in accordance
with statutory requirements and VA policy and that an employee will ensure travel is

VA Office of Inspector General                                                                         10
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

authorized by the Approving Official prior to departure. VA Travel Administration,
Volume XIV, Chapter 1 (February 2011).
                                                                                                             (b)(7)(C)
Travel and email records reflected that              traveled frequently to Washington,
DC, at Government expense starting in May 2011, and that in February 2013, at his own
expense and without approval, he moved to the Washington, DC, metropolitan area,
adopting it as his home and duty station. We recognize that there was no prohibition
against               choosing to move anywhere at his own expense, but this move
evidenced his and Mr. Czerwinski’s intent, with forethought, to relocate             ’s
position and duty station to Washington, DC, as we discuss in Issue 4.

Travel records reflected that during a 20-month period of time, between May 22, 2011,
and February 8, 2013,              traveled to Washington, DC, 34 times, once to Newark,
NJ, and once to Tampa, FL, at a cost of over $109,200.                      told us that he
traveled to Washington, DC, about every 2 weeks at his own discretion; for most of his
travel, he did not get supervisory approval prior to traveling; and he directed a Nashville
management analyst to prepare his travel based on dates, times and places of departure
and return.              told us that he would only tell the analyst “where I needed to be
and when I needed to be there,” without any supervisory approval or oversight.

At the request of VA OIG, Mr. Czerwinski reviewed the 36 occasions that
traveled while under his lax supervision, and he told us that he would not certify 8 as
being mission-essential or financially prudent. Based on Mr. Czerwinski’s inability to
provide justification or supporting documents for 3 other travel instances, we did not
recognize those trips as mission-essential. The amount of funds expended for these 11
unauthorized travel instances was $28,560.94. We also found other unauthorized travel
expenses totaling $2,429.35, which were detailed in a separate exhibit. Below are just a
few examples of             ’s unnecessary travel or failure to be prudent while on travel:
                                                                                                             (b)(7)(C)
    September 6-11, 2011, Washington, DC:                 changed his departure from
     Reagan National to Dulles International Airport at an additional cost of $383. He
     said that it was for personal reasons, as he wanted to attend a horse show near
     Dulles. An agency can authorize an employee to fly out of an airport not located
     near their permanent duty station for personal convenience, but it does not have
     the authority to reimburse the employee for expenses incurred as a result of taking
     an indirect route for personal convenience. Comptroller General Decision, Matter
     of: Lawrence O. Hatch, B-211701, Nov. 29, 1983.

    November 8-11, 2011, Tampa, FL:                   told us that he traveled to Tampa
     in support of the Fast Track Claims Processing System. He said that Mr. Bozeman
     or Mr.              requested and approved this trip. Mr. Bozeman said that he did
     not authorize                to travel to Tampa. Since                   was not in
                     supervisory chain, he did not have the authority to approve this
     travel, as per VA policy.

VA Office of Inspector General                                                                         11
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

   	 September 2012, Washington, DC:                      extended a trip by 12 days and
      when he amended his travel authorization, it resulted in a double charge for
      lodging of $226. Records reflected that                was reimbursed for this double
      charge. Federal regulations state that an agency may pay only those expenses
      essential to the transaction of official business. 41 CFR § 301-2.2.                (b)(7)(C)
   	 July 1–6, 2012, Washington, DC:                    traveled at a cost of $2,197 over a
      holiday week. Mr. Czerwinski did not certify this trip as essential to the VACI
      mission. Federal regulations state that an agency may pay only those expenses
      essential to the transaction of official business. 41 CFR § 301-2.2.

Misuse of Government Contractor-Issued Travel Charge Card

Federal regulations require employees to use a Government contractor-issued travel
charge card for expenses directly related to their official travel. It also states that
employees may not use the Government contractor-issued travel charge card for personal
reasons. 41 CFR § 301-51.6 and 301-51.7. Further, it states that employees are required
to pay their bill in accordance with their cardholder agreement. Id., at 301-52.24.

VA policy states that a misuse of the contractor-issued charge card and account
delinquency are considered misconduct and subject the cardholder to disciplinary actions
ranging from a reprimand to removal. VA Government Travel Charge Card, Volume
XVI, Chapter 2, (October 2011). The U.S. Bank cardholder guide provides the
agreement between the individually billed travel cardholder and U.S. Bank, and states
that by activating, signing or using the Travel Card, the cardholder agrees to the terms
and if the cardholder did not, they were to cut the Travel Card in half and return the
pieces to U.S. Bank. It also states that the amount on the billing statement was due upon
receipt and must be paid in full each billing cycle. Agreement Between Individually
Billed Travel Cardholder and U.S. Bank, Paragraphs 2 and 8.

VA policy states that cardholders are required to pay the full amount on their statement
using personal funds upon receipt, when the statement is due regardless of whether they
have been reimbursed. It further states that cardholders may obtain Automated Teller
Machine (ATM) withdrawals needed to pay for authorized expenses while on official
travel when the vendor does not accept the travel card; however, ATM withdrawals must
be noted and approved on all travel authorizations prior to travel. ATM withdrawal
amounts are determined by the total meals and incidental expense allowance and any
authorized miscellaneous expenses itemized on the travel authorization. VA Travel
Charge Card policy, Volume XVI, Chapter 2 (October 2011).
                                                                                                             (b)(7)(C)
Training records reflected that              successfully completed the VA online travel
charge card training on October 2012, and               told us that every year, since 2007,
he took the online travel charge card training.



VA Office of Inspector General                                                                         12
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Email records reflected that                 while on travel to Washington, DC, made (b)(7)(C)
arrangements with his family, who lived in            , to pick him up at the Vienna, VA,
metro rail station, and Washington Metropolitan Area Transit Authority (WMATA)
records reflected that               commuted to the Vienna, VA, metro rail station on
multiple occasions. Travel records reflected that               used his travel card to pay
for the WMATA transit fare, charging his travel card a total of $400, for which he was
reimbursed.               said this occurred because he did not use a detailed accounting
system to separate his personal and business-related use of his WMATA fare card.

Travel card records reflected and              told us that while on travel to Washington,
DC, he frequented restaurants accompanied by female companions and used his travel
card to pay for these activities. He said that although he used his travel card, he did not
seek reimbursement for his personal charges. For example, travel card records reflected
that on August 26 and 27, 2012,                   used his travel card to charge $295 for
personal expenses at the Mad Hatter and the Dirty Martini restaurants in Washington,
DC. Travel records reflected              did not seek reimbursement for these expenses.

Travel card records also reflected that            took cash advances, most associated
with travel but not approved prior to or subsequent to his travel. Records reflected that
he withdrew over $11,000 between May 2011 and February 2013. We found two cash
withdrawals that were not associated with his travel, one for $203, on August 23, 2011,
and another for $203 on June 8, 2012. In addition, we found one cash withdrawal for
$103 on July 22, 2011, in New York City, NY, when he was supposedly on travel to
Washington, DC. Further, records reflected seven instances, between September 2011
and February 2013, when               did not pay the full amount due on his travel card
monthly statement. Records also reflected that his travel card was declined on multiple
occasions, as reflected below:

   	 31 cash advance attempts, exceeded authorization limit for that period

   	 7 cash advance attempts, invalid pin number

   	 7 hotel room charges, insufficient funds available
                                                                                                   (b)(7)(C)
   	 1 CVS pharmacy transaction, insufficient funds available

Records reflected that between May 2011 and February 2013,                              used his travel
card for improper charges and requested reimbursement. For example:

   	 Multiple valet hotel parking charges between October 2012 and January 2013,
      although            did not rent a car during these trips

    WMATA personal charges of $400



VA Office of Inspector General                                                                         13
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Travel records also reflected that            used his travel card to pay for personal
expenses while on travel to Washington, DC, but he did not seek reimbursement for these
charges. For example:

   	 Numerous purchases of alcoholic beverages from his hotel room minibar
                                                                                                   (b)(7)(C)
   	 Numerous purchases at area CVS Pharmacy stores totaling over $390

   	 A charge of over $170 at a Target store located halfway between his parents’
      home and his newly rented apartment

Travel card records also reflected VRE and WMATA charges of $80 and $50 occurring
on February 1 and February 11, 2013, respectively.                 told us that these were
personal charges, and travel records reflected he did not seek reimbursement for them.

VA policy states that employees will be knowledgeable of Federal travel regulations, VA
travel policy, and any other agency-specific guidance. In addition, employees will
minimize costs of official travel by exercising the same care in incurring expenses that a
prudent person would exercise if traveling on personal business and expending personal
funds. Excess costs, circuitous routes, delays or luxury accommodations and services
unnecessary or unjustified in the performance of official business will not be reimbursed
and are not acceptable under this standard. It further states that all travel will be coach
class unless other-than-coach-class travel is justified in writing, which will include why
coach seating will not accommodate the traveler’s needs. Coach-class accommodations
will be used for all train travel except when VA authorizes first-class service. If
something prevents advance authorization, the employee will obtain written approval
from the agency head within 7 days of completing travel. If other-than-coach-class travel
is not approved after the fact, the employee is responsible for the cost difference between
the other-than-coach-class transportation used and the transportation class for which the
employee was eligible. VA Transportation Expense Policy, Volume XIV, Chapter 3
(August 2011).

Travel records reflected that on October 13, 2011,                  used his travel card to
purchase a round-trip coach train ticket to travel to Metro Park, NJ, on October 19, 2011,
at a cost of $148. On October 19,                upgraded his round-trip ticket to business
express seating at a cost of $307, resulting in an additional cost of $159. In addition,
travel records reflected that             improperly claimed this as a WMATA expense
on his October 30–November 4, 2011, expense report, rather than for the actual travel
event.              said that he forgot to include the receipts for that travel event on the
correct travel voucher, so he claimed it on a subsequent one.                               (b)(7)(C)

              told us that on October 19, Mr. Czerwinski asked him to upgrade his round-
trip train ticket to business class so that the entire VACI team traveling to NJ could sit
together and talk business. We were unable to confirm this with Mr. Czerwinski, who


VA Office of Inspector General                                                                         14
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

resigned his VA position, so we did a cursory review of his travel records. We found that
he traveled from Washington, DC, to Metro Park, NJ, by train on numerous occasions,
and for those travel instances, to include his October 19 trip, Mr. Czerwinski bought and (b)(7)(C)
received reimbursement for business-class train tickets at a higher cost and contrary to
VA policy. Since Mr. Czerwinski resigned his VA position, we did no further review of
his travel records. We determined, in our review of               ’s travel records, that he
misused a total of $30,990.29 in travel funds.

Improper Teleworking

VA Telework policy states that for work-at-home Telework Proposal, the employee must
complete a Telework Self-Certification Safety Checklist (VA Form 0740b), and submit it
to his immediate supervisor. Each teleworker, whether in a telecenter or a home-based
office, must sign a telework agreement. The agreement covers the terms and conditions
of participation in the telework program, and it must be approved by the employee’s
immediate supervisor and appropriate approving official. Before approving agreements,
supervisors and approving officials must determine the impact the telework arrangement
will have on work operations. VA Handbook 5011/5, Part II, Chapter 4, Paragraph 6c
and 6g (September 22, 2005).

             told us that at times he teleworked from remote locations, such as hotels in
Washington, DC, or while in Nashville without a telework agreement and without
supervisory approval. He said that when he traveled to Washington, DC, he teleworked
at least weekly from a hotel room or the apartment he rented in the Washington, DC, area
in February 2013. Email, computer, and internet service provider records reflected that
              also accessed VA systems and teleworked from his personal residence in
Nashville. He said that although he did not have a telework agreement and no one
approved his teleworking, he did so whenever he wanted. He said that he did not ask his
supervisors for their approval, and they would not know he was teleworking unless they
specifically asked him. He further said that when he teleworked, he performed the same
work as he did in the office, which he described as reading and responding to emails and
making telephone calls; however, he also said that when he teleworked, he could not
open encrypted email to read it.                 told us that he was not aware of VA’s
telework policy and that he never saw a telework agreement.                               (b)(7)(C)
Mr. Czerwinski told us that               did not have a telework agreement and that he
was unaware               teleworked from a hotel room when in travel status. He said
that when an employee was on travel, teleworking from a hotel room was inappropriate
and redundant, as an employee could work from home rather than be in travel status.
Mr. Kraft told us that he did not know if               had a telework agreement with his
Nashville supervisor. He said that if                  teleworked when in Nashville, he
assumed it was an arrangement he had with VACI, and it was needed for a particular
project.            told us that the only time she knew that              was teleworking
or on travel was via email when                 told her that he was “in Washington this

VA Office of Inspector General                                                                         15
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

week or I’m working from home this week.” She said that she “was unsure of exactly
what was going on” and that “anything about the project or what he was doing” was
addressed at a “higher level” and not with her. She said that on multiple occasions,
              told her that         was on a special project and not reporting to her. (b)(7)(C)

On February 27, 2013, 1 day after we interviewed Mr. Czerwinski, he and
signed a telework agreement, which stated, “This Agreement [was] in effect for those
duties related to          ’s work for VACI. If at any time his duties for the Nashville
Regional Office must be performed in a telework setting, a separate agreement must be in
place with Nashville RO.” However,                  ’s duty station was still officially in
Nashville, and he was considered in travel status while in Washington, DC.

Misuse of Official Time

VA policy states that the public interest requires the maintenance of high standards of
employee integrity, conduct, effectiveness, and service to the public and that when such
standards are not met, it is essential that prompt and just corrective action be taken. VA
policy is to maintain standards of conduct and efficiency that will promote the best
interests of the service. VA Handbook 5021/3, Part I, Chapter 1, Paragraph 3(a), (June 1,
2005). It also states that sick leave shall be granted to an employee when the employee is
incapacitated for the performance of duties for specific identified reasons. VA Handbook
5011, Part III, Chapter 2, Paragraph 4 (December 6, 2006). Further, it states that an
absence without leave (AWOL) is an unauthorized absence from duty and an employee
receives no pay for the period of time they were absence without authorization. VA
Handbook 5011/18, Part III, Chapter 2[15] (October 13, 2011).

Email records reflected that between April and October 2012,                     failed to
request the appropriate leave from his Nashville supervisors for the time he did not work
during his tours of duty while on travel to Washington, DC. Since they were responsible
for his time and attendance, without notifying them, he would not be charged leave.
Below are emails reflecting partial or full days that                was not charged the
appropriate leave:                                                                         (b)(7)(C)

    	 April 3, 2012 – In an email, Mr. Czerwinski told                 “I understand you’re
       out sick today. Hope you’re feeling better …”                     replied on April 4,
       “Thanks, I made it into the office this afternoon to make sure my inbox was not
       exploding. Still don’t feel like running a race but I am alive.”

     August 3, 2012 – In an August 2 email to VACI staff,                 told them, “I
      plan on taking a day of leave tomorrow to assist in the setup of an annual charity
      event in            for my High School classmates.” Mr. Czerwinski replied and
      asked             if he needed coverage for August 3, and              replied that
      “No coverage required. I will come in and work a few hours in the morning to
      ensure everything is good to go.”


VA Office of Inspector General                                                                         16
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

     October 9, 2012 – In an email,               told Mr. Czerwinski that “I caught a
      chest cold working on my                 over the weekend and need to take a day
      to medicate to ensure it doesn’t settle into a long term thing.” Mr. Czerwinski
      replied on October 10, “We missed you yesterday…Are you in today.”
                  answered, “I am back amongst the living but will be working remotely
      today to ensure I don’t become Typhoid        …”                                  (b)(7)(C)

On another occasion, February 27, 2012,              requested that he be granted leave
for March 12–14, 2012, but he was never charged for the leave in VA’s electronic time
and attendance system. VA policy states that all employees are expected to be on duty
during the full period of their tours of duty unless absent on approved leave. VA
Handbook 5011, Part II, Chapter 2, Paragraph 1 (June 16, 2004).

           ’s time and attendance records reflected that his scheduled tour of duty was
from 6:30 a.m. to 3:00 p.m.             told us that he did his work at his own time and
pace. He said that he worked a schedule that allowed him to take care of personal matters
during his VA time, completing his VA duties and responsibilities on his own time. He
further said that he did not check in with anyone and that he took advantage of the
personal freedom he was given. He said that he did not intentionally mislead his
supervisors in Nashville and Washington, DC, but he took advantage of the situation.

            told us that at least once or twice a month between May 2011 and December
2012 he failed to show up for work, due to his personal activities the previous night. He
said that his “absenteeism” and “not being on my game all the time” had a “negative
affect” on his performance. He further said that some of the choices he made in his
personal life, at times, were directly related to his teleworking or failing to report for
duty. He said that he missed work about 15–20 times during that time frame without
being charged leave; however, for that 20-month period of time, once a month equated to
20 times. Mr. Czerwinski told us that he did not know when                  was on leave. (b)(7)(C)
He said that he assumed that                     worked a full week when on travel to
Washington, DC, but he also said that he never discussed                 tour of duty with
him while              was detailed to VACI.

Misuse of Official Resources and Unapproved Software

VA policy states that email shall be used for authorized Government purposes and that
users must exercise common sense, good judgment, and propriety in the use of this
Government resource; employees will not misuse VA systems or resources; and
employees will not download unauthorized applications and/or software. VA Handbook
6500 (September 20, 2012).

In a May 11, 2012, email, Mr. Czerwinski asked a VA Technology Director if he could
download Skype—a proprietary software product for voice communications and
multimedia sessions over the internet—to his VA-issued computer, and the Director


VA Office of Inspector General                                                                         17
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

replied, “Unfortunately not yet,” due to a lack of VA policy. The One-VA Technical
Reference website (decision date January 11, 2013) stated that Skype software was not
approved for use on VA systems.                                                       (b)(7)(C)
Email records reflected that            used his VA-assigned email account extensively
to communicate with personal friends.               told us that from July 2012 to May
2013, he used his VA-assigned email account for his own personal convenience for about
1 hour a day during his duty hours to communicate with friends. Records also reflected,
as well as a VA OIG forensic examination of               ’s VA-assigned laptop, that he
used his laptop to video chat, using Skype software. He said that he downloaded the
Skype software onto his VA-issued laptop without approval and that he used this
software for sexting close personal friends.                told us that he was “out of
control” when he downloaded the unauthorized software and misused his VA-issued
laptop to engage in this behavior.

Training records reflected that               completed VA’s mandatory privacy and
information security awareness and rules of behavior training on October 18, 2012, which
state that unauthorized downloading and using VA resources for unauthorized use on VA
systems are prohibited. VA policy permits limited personal use of Government office
equipment. However, it prohibits the creation, downloading, viewing, storage, copying,
or transmission of sexually explicit or sexually oriented materials, or loading personal
software. VA Directive 6001 (July 28, 2000).

Conclusion
We found that                 traveled without proper authorization or any supervisory
oversight for a total cost of over $109,200. He traveled whenever and wherever he
wanted, billing VA for his expenses. He not only traveled to Washington, DC, at will, he
took an unnecessary trip to Florida, and in one instance, he withdrew cash from an ATM
located in New York City when he was supposedly on travel to Washington, DC. We
determined that 11 travel instances, at a cost of $28,560.94, could not be documented as
being mission-essential and additional misuse of travel funds totaling $2,429.35 brought
the total to $30,990.29.                                                                 (b)(7)(C)
We also found that                misused his Government contractor-issued travel charge
card for his own personal convenience. For example, he used it to entertain female
companions, withdraw cash when not on travel, charge over $170 at a Target store for
personal items, buy liquor from his hotel room minibar, and for his personal commutes to
visit family. He also made frequent attempts to use his travel card in which his attempts
failed, due to his exceeding his authorized limit or having insufficient funds available.
Moreover, there were seven instances in which he failed to pay the full amount due on his
travel card monthly statements. We found in one instance that               upgraded to a
business-class train ticket at the request of Mr. Czerwinski, and a review of his travel



VA Office of Inspector General                                                                         18
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

records reflected that Mr. Czerwinski frequently failed to follow VA travel policy by
traveling in business class at a higher cost to VA.                                   (b)(7)(C)

Further, we found that              teleworked as he pleased at least weekly from a hotel
room or the apartment he rented in the Washington, DC, metropolitan area when in travel
status to Washington, DC, and also when he was in Nashville. He did not have a
telework agreement nor had any of his supervisors, whether in Washington, DC, or
Nashville, authorized             to telework. He said that he performed the same duties
whether teleworking or not; however, he also said that he could not open encrypted email
when teleworking, which would significantly impact his ability to perform these tasks.
The only way               ’s supervisors knew of his teleworking status was if he told
them. Mr. Czerwinski was unaware of                  teleworking, and he said that it was
improper for              to telework while in travel status. However, Mr. Czerwinski
subsequently signed a telework agreement with                    but it was irrelevant, as
              duty station remained Nashville, and he was technically in travel status
when in the Washington, DC, area.

We found that             did not follow his scheduled tour of duty and that he worked at
his own time and pace. He worked an ad hoc schedule so that he could conduct personal
business during his VA workday. By his own admission, he took advantage of the lack
of supervision and unlimited freedom given to him. As a result, we determined that
            was absent without being charged leave or absent without leave on more than
25 separate occasions. In 5 of those instances, we found that he requested sick or annual
leave from his Washington, DC, supervisor; however, he failed to notify his Nashville
supervisors so that he was properly charged leave for that time. In at least 20 instances,
            was absent without leave during his official tours of duty as a result of his
previous night’s activities, and               admitted that his misconduct negatively
affected his performance. VA policy states that an absence without leave is considered
an unauthorized absence from duty and prohibits paying an employee for that time.          (b)(7)(C)
Finally, we found that               misused his VA-assigned laptop and email account
extensively to communicate with personal friends, to include video chatting with the use
of unauthorized Skype software. Although VA OIG did a forensic examination of the
laptop, we did not remove any prohibited software or other contents. VA policy permits
limited use of VA equipment; however, it prohibits it from being used for the purpose of
transmission of sexually explicit or sexually oriented materials or loading personal
software.              not only downloaded unauthorized software and used it to engage
in prohibited conduct, he did this after taking VA’s mandatory privacy and information
security awareness training and signing VA’s rules of behavior.

Recommendation 6. We recommend that the VA Chief of Staff confer with OHRA and
OGC to determine the appropriate administrative action, if any, to take against




VA Office of Inspector General                                                                         19
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Recommendation 7. We recommend that the VA Chief of Staff ensure that 

is issued a bill of collection for $30,990.29 to reimburse VA for a misuse of travel funds. 


Recommendation 8. We recommend that the VA Chief of Staff ensure that               ’s
time and attendance between March and October 2012 is corrected and that he is charged
the appropriate annual and sick leave for that time.                                   (b)(7)(C)
Recommendation 9. We recommend that the VA Chief of Staff ensure that the total
amount paid to               for the 20 instances that he was absent without authorization
be determined and that               is issued a bill of collection for that amount, since he
cannot receive pay for the time that he was absent without authorization.

Recommendation 10. We recommend that the VA Chief of Staff ensure that the
Information Security Officer with oversight for         ’s VA-issued equipment, to
include his laptop and cellular telephone, examine that equipment to remove any
unauthorized software and/or content.

Recommendation 11. We recommend that the VA Chief of Staff ensure that all VACI
employees, to include any detailed or assigned to VACI from other organizations, receive
refresher training on Federal travel regulations and VA travel policy.

Issue 4: Whether Mr. Czerwinski and VBA Officials Engaged in a Prohibited
Personnel Practice

Federal law states that any employee who has authority to take, direct others to take,
recommend, or approve any personnel action, shall not, with respect to such authority,
solicit or consider any recommendation or statement, oral or written, with respect to any
individual who requests or is under consideration for any personnel action unless such
recommendation or statement is based on personal knowledge or records of the person
furnishing it and consists of an evaluation of the work performance, ability, aptitude, or
general qualifications of such individual; or an evaluation of the character, loyalty,
or suitability of such individual. Further, it prohibits granting any preference or
advantage not authorized by law, rule, or regulation to any employee for the purpose of
improving or the prospects of any particular person for employment. 5 USC § 2302(b).
The Merit Systems Protection Board website www.mspb.gov/ppp/aprppp.htm states, “It
is possible to violate section 2302(b)(6) using legally permissible hiring actions if the
intent is to afford preferential treatment to an individual.”

Standards of Ethical Conduct for Employees of the Executive Branch state that
employees shall not use public office for private gain and shall act impartially and not
give preference to any individual. 5 CFR § 2635.101(b). VA policy states that all GS-14
VBA positions centralized to the Under Secretary for Benefits require prior approval
authority of the Under Secretary for Benefits. VA Handbook 5001, Part II, Paragraph 8b
and Appendix C (April 15, 2002).


VA Office of Inspector General                                                                         20
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

In a January 11, 2013, email, Mr. Czerwinski asked Mr. Richard Buchanan, Director of
the Office of Strategic Planning (OSP), VBA, how to transfer         from Nashville
to Washington, DC. Mr. Czerwinski said:

       There is a terrific guy working for the VA innovations team named
                     , who is based out of the Nashville RO and works under Alan
       Bozeman, started out working part-time on VACI projects last year and has                       (b)(7)(C)
       gradually become a very central member of the team. He wants to move to
       DC and he wants to stay working for the Innovations team. I wanted to ask
       you about how best to achieve this. One option would be to transfer his
       FTE from Nashville to VBACO and start paying for him out of the GOE
       portion of the VACI budget. Not sure if it makes sense from where you sit
       that he be moved to OSP or some other office and I would therefore greatly
       value your advice about what would be best for him.” (Emphasis added)

When we interviewed Mr. Czerwinski in February 2013, we told him of the allegations
made against               and of the extent of the misconduct we found through our
investigation. Although we told Mr. Czerwinski that the detailed information we
discussed during his interview was confidential, the simple fact that               was
under investigation by OIG was not. However, we discovered that Mr. Czerwinski
continued asking Mr. Buchanan, OSP staff, and VBA HR staff to find a way to relocate
            to Washington, DC, without telling them of the ongoing OIG investigation.

In a March 7, 2013, email, Mr. Buchanan told Mr. Czerwinski, “I directed that the Office
of Strategic Planning use a GS13/14 billet in the Deputy Director Transformation
Initiatives and Future Concepts (DDTIFC) to hire                   . Once he is on board he
will be assigned to VAi2 to fulfill the billet that you have requested of VBA.” That same
day, in another email, Mr. Buchanan directed OSP staff to use a GS13/14 position in (b)(7)(C)
DDTIFC to hire                 who would then be assigned to VACI at Mr. Czerwinski’s
request. In that same email, Mr. Buchanan directed his HR Coordinator,
            , VBA OSP Program Specialist, to reach out to                      and work the
details/timing of his assignment. Mr. Buchanan told us that Mr. Czerwinski preselected
              for this position before it was even created or announced. He said that
Mr. Czerwinski suggested that “the stature of the position deserved a more senior pay
grade,” resulting in Mr. Buchanan making this a GS-13 position with promotional
potential to a GS-14. He further said that Mr. Czerwinski failed to tell him that
             was under investigation by OIG and that if he (Mr. Buchanan) knew that there
was an ongoing OIG investigation, he would have held the hiring process for
in abeyance. He further said that, in his opinion, Mr. Czerwinski acted improperly by not
disclosing this information to him. However, contrary to his assertions, Mr. Buchanan
allowed the personnel action he signed converting                 to a career appointment to
take effect on August 11, 2013, 4 days after we informed him of the OIG administrative
investigation of


VA Office of Inspector General                                                                         21
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Email records reflected that Mr. Czerwinski sent numerous emails to Mr. Michael
Yaguchi, Deputy Director, OSP, in his efforts to relocate     For example:

   	 On March 29, 2013, “Mike—Do you have time to talk today? Phone is not
      working and I’d like to make sure this duty station transfer effort is closed out.
      Also want to make sure you are not waiting on anything from me.”
                                                                                                        (b)(7)(C)
   	 On April 8, 2013, “Mike—Since we haven’t been able to connect by phone can
      you tell me whether                ’s FTE is now a part of OSP/VBACO with the

      necessary duty station transfer and paperwork? If not, what can I do to help?”


    On May 31, 2013, “Mike,                 —Can you let us know the status of                        ’s
     transfer?”

   	 On June 06, 2013, “Mike—Tomorrow another week will have passed. The ball
      went back to VBA three weeks ago on May 16th. Dragging this out any longer is
      unfair to the employee. Can we please close this out today?”

Mr. Yaguchi told us that his involvement with                    promotion was limited to
helping write the position description (PD), soliciting for the VBA OSP position with the
Office of the Undersecretary for Benefits, and talking with the Deputy Chief of Staff,
Mr. Christopher Holly. He said that Mr. Czerwinski, Mr. Buchanan, and Mr. Holly told
him to make this happen and he just followed orders. Mr. Yaguchi said that he thought
the hiring effort was “perfectly legit,” since            was a veteran and already located
in the Washington, DC, area.

                told us that Mr. Buchanan directed him to look at                    ’s
background to determine how OSP could hire him. In an April 25, 2013, email,
               directed                , VBA HR Specialist, to create an SF-52 for a
newly created GS-0343-13/14 position so as to relocate              from Nashville to
Washington, DC, to be the VBA liaison to VACI.                    told us that, at that
time, he was unaware that          was the subject of an OIG investigation.             (b)(7)(C)
In a May 4, 2013, email,                told                that           was classified as
a                                        , and he could be considered non-competitively for
a GS-13/14 or a GS-11/12/13 position. He said that to do so would require him to
prepare a non-competitive vacancy announcement and send the link only to                  so
that he could submit an application. He also “strongly suggest[ed]” having a PD for
            “rather than just ‘fitting’ him into another PD that doesn’t accurately describe
his duties.” In a May 6, 2013, email,                 asked Mr. Czerwinski to submit a PD
describing the duties and responsibilities for the GS-13/14 position to classify the
position. Mr. Czerwinski complied.




VA Office of Inspector General                                                                         22
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Office of Personnel Management (OPM), Veterans Services, Vet Guide, states that an
agency may give a non-competitive temporary appointment of more than 60 days or a
term appointment to any veteran retired from active military service with a disability
rating of 30 percent or more or rated by VA since 1991 or later to include disability
determinations from a branch of the Armed Forces at any time, as having a compensable
service-connected disability of 30 percent or more. It states that there is no grade level
limitation for this authority, but the appointee must meet all qualification requirements.
Further, the agency may convert the employee, without a break in service, to a career or
career-conditional appointment at any time during the employee's temporary or term
appointment. 5 USC § 3112; 5 CFR §§ 316.302, 316.402 and 315.707.
                                                                                                             (b)(7)(C)
Mr. Holly told us that Mr. Czerwinski asked OSP personnel to hire                  so they
updated the OSP organization chart on April 1, 2013, to reflect the newly created position
to be filled by              He said that Mr. Czerwinski, on his own initiative, sent
various emails to OSP personnel stating, “Hey it has been a month, why haven’t you guys
done this,” and complained about how slow the process to hire                     moved.
Mr. Holly said that these emails were annoying and could be considered pressure from
Mr. Czerwinski when OSP staff tried “cleaning up his mess and trying to make it right.”

Mr. Holly told us that OSP staff initially did the work to laterally move             and
then they realized that, per Mr. Czerwinski,             was supposed to be promoted to a
GS-13. Mr. Holly said that Mr. Czerwinski failed to disclose to him that              was
the subject of an OIG investigation, and he felt that this was a violation of the ICARE
initiative—Core Values and Characteristics that apply universally across all of VA.
Mr. Holly also said that if he knew that                was under investigation, he would
have left             in Nashville until the investigation ran its course. He said that he
thought Under Secretary Allison Hickey would be “crushed” and “fired up” to know that
she signed a congratulatory letter for                  not knowing that he was under
investigation by OIG. Moreover, he said that with VBA’s backlog in veterans
compensation claims, it will be devastating when OIG reports that                     was
rewarded via a promotion when his improper and extended detail to VACI contributed to
the VBA backlog.                                                                           (b)(7)(C)
                told us that he and                      posted a USAJOBS vacancy
announcement for 2 days, for VA employees and for applicants who were non-
competitive eligible, such as                                   , eligible under veterans
recruitment appointment (VRA), transfer/reinstatement eligible, individuals with
disabilities, etc. However,            said that he sent             the internet link (web
address) to the vacancy announcement and that                    was the only one given
access, since Mr. Czerwinski wanted to select             for the position. When asked if
someone else searching the USAJOBS website could have found the announcement,
              said, “No.” When asked if it was restricted only to an individual given the
specific web address,            said, “Yes.” We found that this could be accomplished


VA Office of Inspector General                                                                         23
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

by using either a restricted uniform resources locator (URL), also known as a web
address, or by the use of an unpublished URL.                                   (b)(7)(C)
In a July 3, 2013, email,             told                and others that            was
selected for the GS-13/14 Program Analyst position (VAIC Liaison), Washington, DC,
and that             accepted the formal job offer, effective July 14. Personnel records
reflected that Mr. Czerwinski selected             as the best candidate for the position
and that on July 2, 2013, Mr. Danny Pummill, Principal Deputy Under Secretary for
Benefits, authorized              ’s selection on behalf of Under Secretary Hickey.
Records further reflected that Under Secretary Hickey signed a VBA standard letter
congratulating            on his selection and promotion.

Mr. Pummill told us that he did not know, and Mr. Czerwinski failed to tell him, that
            was under investigation by OIG when he authorized his selection. He said
that because of Mr. Czerwinski’s position in VA leadership, OSP staff felt they had no
option but to process his request. He further said that Under Secretary Hickey was not
aware that OIG was investigating                 when she signed the congratulatory letter
and that she would be upset once she learned of it. He said that if he knew OIG was
investigating              he would not have taken any action until the investigation was
completed, and once completed, if favorably, he would consider                      for the
position. He said that, in his opinion, it was unethical for a senior leader to recommend
an employee for transfer or promotion knowing that the employee was under
investigation and did not disclose that information to the gaining organization.

Mr. Czerwinski told us that one of the toughest parts of getting                 transferred
was engaging Mr. Buchanan to act on it. He said that he spoke to Mr. Buchanan about
filling a VBA OSP position with               and he initially said that he did not ask that
              be promoted. However, he later told us that his rationale behind promoting
him was due to              ’s past performance and the expected increase in duties. He
said that his effort to have                promoted to a GS-13/14 and relocated to
Washington, DC, could be considered as pressure but that he did not think he misused his
position as the VACI Director or Senior Advisor to the Secretary. He also said that he
did everything he could to make it happen. Further, Mr. Czerwinski said that he did not
know how an OIG investigation would negatively affect promoting an employee and
regardless of the investigation he believed             was the right man with the right
skillset for the job.                                                                        (b)(7)(C)

We told Mr. Czerwinski, in our February 2013 interview, that                   told us that he
took full responsibility for his misconduct and admitted that he intentionally took
advantage of the weaknesses in his supervisory chain and the system for his own personal
gain. Mr. Czerwinski told us that even after being fully aware of                           ’s
misconduct it was not his responsibility to tell anyone associated with the hiring initiative
that            was under investigation by OIG. He said that, in his opinion, an OIG
investigation would not compromise                ’s suitability to perform his VACI duties.

VA Office of Inspector General                                                                         24
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Mr. Czerwinski said that after the completion of the investigation            should be
more suitable and have a higher awareness of the guidelines he should follow.

Conclusion                                                                                             (b)(7)(C)

We concluded that Mr. Czerwinski engaged in a prohibited personnel practice when he,
with intent to do so, gave                    preferential treatment and provided him an
advantage not afforded to other VA employees. He first improperly detailed
for over 2 years into a position with known promotion potential, and he “did everything
he could” to create a position at a higher grade for               so that            could
relocate to Washington, DC, and continue working for VACI. Mr. Czerwinski began the
process in January 2013, and 1 month later,                relocated to the Washington, DC,
area, anticipating that his duty station would officially be changed. We also found that
Mr. Czerwinski did not discharge the duties of his position when he, with full knowledge
of an ongoing OIG administrative investigation and of the extent of                      ’s
misconduct, intentionally did not inform VBA officials of the investigation so that they
could make a fully informed decision in the hiring initiative associated with            ’s
promotion. Most told us that had they known of the OIG investigation they would have
made a different decision in this initiative.

We also concluded that Mr. Holly, Mr. Buchanan,                          and
engaged in a prohibited personnel practice when they did not make proper considerations
in making personnel decisions and with intent to do so, gave                  preferential
treatment in the creation of a higher-graded position with the intent of promoting
              into that position. They, without question, created an OSP position to
promote and relocate                 to Washington, DC, solely because Mr. Czerwinski
asked them to do so. We recognize that VBA officials could have legitimately laterally
transferred              into another GS-12 position for which he was qualified, but they
chose not to use that option. We also recognize that as a
                     could have been appointed, non-competitively, to any grade position.
However in this instance, the vacancy announcement was for all VA employees who
were non-competitive eligible, yet              being preselected, was the only applicant
given access to the vacancy announcement to apply for the position. Moreover, the intent
of creating the position and posting the announcement was to give             preference.
Mr. Czerwinski, using his stature and position within VA leadership, applied pressure to
VBA officials to “make this happen,” and they blindly followed his directive.              (b)(7)(C)

Recommendation 12. We recommend that the VA Chief of Staff confer with OHRA
and OGC to determine the appropriate administrative action, if any, to take concerning
the prohibited personnel practice and       ’s promotion.

Recommendation 13. We recommend that the VA Chief of Staff confer with OHRA
and OGC to determine the appropriate administrative action, if any, to take against
Mr. Holly.


VA Office of Inspector General                                                                         25
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO

Recommendation 14. We recommend that the VA Chief of Staff confer with OHRA
and OGC to determine the appropriate administrative action, if any, to take against
Mr. Buchanan.
                                                                                                             (b)(7)(C)
Recommendation 15. We recommend that the VA Chief of Staff confer with OHRA
and OGC to determine the appropriate administrative action, if any, to take against


Recommendation 16. We recommend that the VA Chief of Staff confer with OHRA
and OGC to determine the appropriate administrative action, if any, to take against


Comments
The VA Chief of Staff was responsive. He asked that we revise or clarify several items
in our draft report, which we did. His comments are in Appendix A. We will follow up
to ensure that the recommendations are implemented.




                                                                   JAMES J. O’NEILL 

                                                              Assistant Inspector General for 

                                                                      Investigations 





VA Office of Inspector General                                                                         26
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO
                                                                                             Appendix A
                         VA Chief of Staff Comments


                Department of
                Veterans Affairs                                    Memorandum

   Date:        February 12, 2014

   From:        VA Chief of Staff (00A)

   Subject: 	 OIG Report – Administrative Investigation, Failure to
              Properly Supervise, Misuse of Official Time and Resources,
              and Prohibited Personnel Practice, VACI, VACO

   To:	         Director, Administrative Investigations Division,
                Office of Inspector General (51Q)

                1. We appreciate the opportunity to review the OIG Report,
                subject as above.

                2. We concur with the revisions made to the report.




VA Office of Inspector General                                                                         27
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO



                             VA Chief of Staff’s Comments 

                         to Office of Inspector General’s Report 



                The following VA Chief of Staff’s comments are submitted in
                response to the recommendation(s) in the Office of Inspector
                General’s Report:

                OIG Recommendation(s)

                Recommendation 1. We recommend that the VA Chief of
                Staff ensure that VBA conducts a review of all RVSRs to
                ensure that any not performing the functions of their position
                are either properly detailed or returned to their RVSR duties.
                Comments: See page 26.
                Recommendation 2. We recommend that the VA Chief of
                Staff confer with the OHRA and OGC to determine the
                appropriate administrative action, if any, to take against

                Comments: See page 26.
                Recommendation 3. We recommend that the VA Chief of
                Staff confer with the OHRA and OGC to determine the
                appropriate administrative action, if any, to take against
                                                                                              (b)(7)(C)
                Comments: See page 26.
                Recommendation 4. We recommend that the VA Chief of
                Staff confer with the OHRA and OGC to determine the
                appropriate administrative action, if any, to take against

                Comments: See page 26.
                Recommendation 5. We recommend that the VA Chief of
                Staff ensure that                              and
                receive appropriate refresher training in supervisory
                responsibilities for official travel, performance standards, and
                appraisals.
                Comments: See page 26.




VA Office of Inspector General                                                                         28
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO



                Recommendation 6. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take against

                Comments: See page 26.
                Recommendation 7. We recommend that the VA Chief of                           (b)(7)(C)
                Staff ensure that           is issued a bill of collection for
                $30,990.29 to reimburse VA for a misuse of travel funds.
                Comments: See page 26.
                Recommendation 8. We recommend that the VA Chief of
                Staff ensure that             ’s time and attendance between
                March and October 2012 is corrected and that he is charged
                the appropriate annual and sick leave for that time.
                Comments: See page 26.
                Recommendation 9. We recommend that the VA Chief of
                Staff ensure that the total amount paid to              for the
                20 instances that he was absent without authorization be
                determined and that              is issued a bill of collection
                for that amount, since he cannot receive pay for the time that
                he was absent without authorization.
                Comments: See page 26.
                Recommendation 10. We recommend that the VA Chief of
                Staff ensure that the Information Security Officer with
                oversight for             ’s VA-issued equipment, to include
                his laptop and cellular telephone, examine that equipment to
                remove any unauthorized software and/or content.
                Comments: See page 26.
                Recommendation 11. We recommend that the VA Chief of
                Staff ensure that all VACI employees, to include any detailed
                or assigned to VACI from other organizations, receive
                refresher training on Federal travel regulations and VA travel
                policy.
                Comments: See page 26.




VA Office of Inspector General                                                                         29
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO



                Recommendation 12. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take concerning
                                                                                              (b)(7)(C)
                the prohibited personnel practice and            ’s promotion.
                Comments: See page 26.
                Recommendation 13. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take against
                Mr. Holly.
                Comments: See page 26.
                Recommendation 14. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take against
                Mr. Buchanan.
                Comments: See page 26.
                Recommendation 15. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take against
                                                                                          (b)(7)(C)
                Comments: See page 26.
                Recommendation 16. We recommend that the VA Chief of
                Staff confer with OHRA and OGC to determine the
                appropriate administrative action, if any, to take against

                Comments: See page 26.




VA Office of Inspector General                                                                         30
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO
                                                                                             Appendix B
             OIG Contact and Staff Acknowledgments


OIG Contact                        For more information about this report, please contact the
                                   Office of Inspector General at (202) 461-4720.
Acknowledgments                    Domingo Alvarez
                                   Charles Millard




VA Office of Inspector General                                                                         31
                                                         Administrative Investigation, Failure to Properly
      Supervise, Misuse of Official Time and Resources, and Prohibited Personnel Practice, VACI, VACO
                                                                                             Appendix C
                                  Report Distribution
VA Distribution

Deputy Secretary (001) 

Chief of Staff (00A) 

Executive Secretariat (001B) 

Under Secretary for Benefits (20) 




          To Report Suspected Wrongdoing in VA Programs and Operations:

                             Telephone: 1-800-488-8244 

                            E-Mail: vaoighotline@va.gov

                    Hotline Information: www.va.gov/oig/hotline





VA Office of Inspector General                                                                         32
